Supreme Court, U.S.
FILED

-610

OCT 2 3 2020
OFFICE OF THE CLERK

Linda Howland (petitioner)

V
Michael Kelly (Darweesh, Lewis, Kelly and VonDohlen) and
Hollice Creek (Howard Hannah Real Estate Service)

ON PETITION FOR A WRIT OF
CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND
CIRCUIT

Linda Howland (petitioner)
ProSe Petitioner
Von Dohlen
402 Holt Road
Webster, NY 14580

Michael Kelly (defendant)
Attorney Darweesh, Lewis , Kelly and
1081 Long Pond Rd #200
Rochester, NY 14626
Hollice Creek (defendant)
Howard Hanna Real Estate Services
2349 Monroe Avenue
Brighton, NY 14618

Page 1 of 38

Questions Presented for Review
Under 18 U.S.C. § 371 a conspiracy to defraud the US. The crime is that of
two or more persons who conspire to commit an offense against the United
States, or to defraud the United States
Questions^
1. Did the Second Circuit Court of Appeals prematurely dismiss the case
without viewing the facts proving violations to Federal Statutes that shows a
finance scheme exists which funds operations designed to force bankruptcy of
the United States and harm to citizens of the US?

2. The court in this case would only see one small portion of the fraud
I

scheme with the defendants in this case. Harnessing the power of cash flows
from illegal mortgage financing generates massive amounts of wealth which
is being used to undermine the United States, our system of democracy and
the soundness of our constitution. The financial crisis beginning 2008 was a
replica of what is happening now due to COVID. I worked in the credit and
housing counseling industry and know how the cash operations work
supporting plans to bankrupt the United States. The defendants are part of
larger scale organized crime that caused the housing crisis with help from

,

credit counseling agencies. For the safety and soundness of the citizens of the
United States, our system of democracy and preservation of our constitution,
would the Court consider granting the writ and hearing the case to

Page 2 of38

understand how the cash flows generated from mortgage financing is used in
investment fraud, tax evasion, drug and sex trafficking, anti-trust violations,
voter fraud, and civil rights violations in a conspiracy against the United
States?

3.

Facts will show the actions of Hollice Creek and Michael Kelly were

intentional and with the intention to defraud as they were compensated to
help my X-husband hide the true value of our estate which was unbeknownst
to me at the time of over $12Trillion dollars. Their purpose was to
undermine me and part of a scheme to defraud the US as part of a conspiracy
for which their actions are federal offenses and violations of the laws underi

18 U.S.C. § 371 a conspiracy to defraud the US
18 USC 1014 False Statements in overvalue loan and loan applications
31 USC 3729 False Claims Act
18 U.S.C 1344 Bank Fraud
18 U.S.C, 1343 Wire Fraud
18 U.S.C 1961-1968 Racketeer influenced and corrupt organizations
18 USC 1956; Laundering of monetary instruments

;

15 USC 1637A(a), 1639(a-h): Truth in Lending and Real Estate
Settlement Procedures Act

'

12 USC 2605: Servicing of mortgage loans and administration of
escrow accounts

Page 3 of38

•

Federal Fair Housing Act Sec. 805(42 U.S.C. 3605) Discrimination in
Residential Real Estate-Related Transactions

•

18 USC 1028 Fraud and related activity in connection with
identification documents, authentication features and information

4. The facts will prove the defendants committed violations of the law to hide
the value of the estate owned by my Xhusband Daniel Howland. They
presented misleading documents surrounding the real estate transaction and
the divorce settlement to hide the true value of the estate at over
$12,624,737,335 for which I would have settled in this real estate transaction.
Would the court order financial compensation for 1/2 that amount or
$6,312,268,662 which would have been divided by my X-husband and I if
Mike and Holly presented a true picture and not set out to defraud me and
the Federal Government.
List of Parties to Proceedings
Linda Howland (petitioner)
ProSe Petitioner
402 Holt Road
Webster, NY 14580

Michael Kelly (defendant)
Darweesh, Lewis , Kelly and Von Dohlen

Page 4 of38

.SIX

1081 Long Pond Rd #200
Rochester, NY 14626

Hollice Creek (defendant)
Howard Hanna Real Estate Services
2349 Monroe Avenue
Brighton, NY 14618
Corporate Disclosure Statement
1. Darweesh, Lewis , Kelly and Von Dohlen
This is the law firm to which Michael Kelly is a partner and he represented
me in my divorce, purchase of 402 Holt Road and sale of 1541 Fieldcrest
Drive
2. Howard Hanna Real Estate Service aka Hanna Holdings
This is the firm to which Hollice Creek is a broker-realtor. Hollice was the
real estate agent contracted to sell the property

i
i

Page 5 of38
v>M<

Table of Authorities
1. United States v Robert J Amico, Richard N Amico....
US Court of Appeals 2nd Circuit
US Western District Court of New York
00-cr-6155
08-1338-cr

2. US v Brown
US Western District Court of New York
16-CR-41-FPG

3. US v Snow
t

US Court of Appeals 10th Circuit
10-796

4. Howland v University of Rochester and Paychex
US Western District Court of New York
f

I
i
i

6:2019 cv 06532cjs

5. Hammerschmidt v. United States
Supreme Court of the United States
265 US 182

Page 6 of38

e*

I

Citations of Opinions
1. United States v Robert J Amico, Richard N Amico....
US Court of Appeals 2nd Circuit
Western District of New York
Case #08-1338-CR
Judges Sonia Sotomayor and Barrington D. Parker of the Second Circuit
Court of Appeals upheld the decision of the Western District of NY Judge
Siragusa on charges arising from mortgage fraud. Amico’s were indicted on a
mortgage fraud scheme identical to this case citing mail fraud, tax evasion
and conspiracy to defraud banks The defendants falsified mortgage loan
applications and obtained mortgage financing on over 100 homes using false
documentation. Some purchasers were willing participants while others had
no idea their id’s had been used for the loan applications. Mortgage financing
was stolen and laundered through falsified closing documents with the
intention the loans would never be paid back and go into default. Those
loans were backed by the federal government and defaulted. They pleaded
and were found guilty of participating in a continuing financial crimes
enterprise in violation of 18 USC 225 and conspiracy to commit bank and
mortgage fraud in violation of 18 USC 371 This case is almost identical and
the loan documents, tax records, deeds and closing documents will prove it.

2. US v Brown
United States Western District of New York District Court

Page 7 of38

Case # 16-CR-41-FPG
Judges Frank Geraci found the defendant Tina Brown guilty of conspiracy to
commit wire fraud in a mortgage fraud scheme impacting financial
institutions in violation of 18 USC 1349. In this case the defendant and
others worked to obtain federal backed mortgage loans for unqualified
borrowers. Brown inflated property values and falsified documents to obtain
the loan. Brown knew the loans would not be repaid resulting in default to
the federal government. She knew the mortgage financing was inflated and
in default would cause great losses to the banks and federal government. She
prepared misleading documentation in the mortgage transactions to account
for her theft of the mortgage financing. This case is exactly the same and the
facts will support

3. US v Snow
US Court of Appeals 10th Circuit
10-7096
Mr. Snow, his son and his company Storybook Homes were found guilty in a
mortgage fraud scheme. They recruited unqualified buyers to purchase
houses for artificially high prices and provided them cash back from
mortgage financing as incentive after originating false mortgage loan
applications on their behalf. They knew the buyers could not pay the
mortgages and had no intention of paying the federally backed mortgages

Page 8 of38

1x5

intending to defraud the banks and federal government. Mr. Snow formed
supporting companies to control the mortgage process including closing on
/

the loans and falsification of HUD 1 closing documents to hide where the
wired cash from the mortgage companies was distributed.

!

4. Howland v University of Rochester and Paychex
Western District of New York
6;2019 cv 06532cjs
This lawsuit is currently pending in the Western District of New York for a
decision by Judge Siragusa. The case was brought by Me Linda Howland
I

1

f

against the University of Rochester and Paychex Corporation. I allege as the
petitioner that I was fired from the University of Rochester in retaliation for
showing them the money laundering scheme using fake id’s implanted in the
data. I illustrated for them how work in conjunction with Paychex (one of
their largest donors) using fake ID’s at the University is used in conspiracy to
defraud the US, civil rights violations targeted at minorities, seniors and
children in drug and sex trafficking practices. I described how the University
produced software I bought while working at the Credit Counseling agency.
Unbeknownst to me the software was being used to profile groups of people to
be targeted in crimes including the mortgage fraud, investment fraud sex and
drug traffic. They told me I suddenly had a performance issue and fired me

Page 9 of 38

ay
vy

5. Harmnerschmidt v. United States, the Supreme Court of the United States, in an
opinion authored by Chief Justice William Howard Taft, held that "To conspire to
defraud the United States means primarily to cheat the government out of
property or money, but it also means to interfere with or obstruct one of its
'

lawful governmental functions by deceit, craft or trickery, or at least by
means that are dishonest." Hollice Creek and Mike Kelly are a small
example in this case of a larger scale crime which is laundering cash through
non-profit Credit Counseling Agencies from mortgage financing. They
knowingly and with intent to defraud the Federal Government by avoiding
taxes and causing loan default will force bankruptcy in violating the law in a
conspiracy and treasonous acts.
Table of Contents
Question Presented

Page 2

Parties to Proceeding,

.Page 5

Corporate Disclosure

Page 6

Table of Authorities

Page 6

Citations of Opinions

Page 7

Table of Contents

Page 10

Basis of Jurisdiction

Page 12

Constitutional Provisions

Page 13

Statement of Case

Page 14

Reasons for Granting and Conclusion

Page 38

Page 10 of 38

0*

f

INDEX TO APPENDIX
® Appendix A

Decision of Civil Court Western District of New York

• Appendix B

Decision of US Second Circuit Court of Appeals

• Appendix C

Town Foil Report document proving Alan Krautwurst

was the subdivider not owner or builder of the property and did not
have right to grant title
•

Appendix D

Town Foil Report Abstract document showing Ontario

Housing as landowner of 1541 Fieldcrest Drive and subdivision
Crystalbrook estates
•

Appendix E Town Foil report showing Grundman as property owner.
No where in the history of the records do the Grundman’s appear as
owners of the land. MLB Engineering made up a deed and the name to
support the finance fraud. The notary signed the fake deed one year
after the “Grundmans” signed the deed.

•

Appendix F

Fake Deed filed by Alan Krautwurst granting property

to Dan Howland and myself. Krautwurst did not have ownership to
grant title
•

Appendix G Purchase offer by Rowley on 1541 Fieldcrest Drive

•

Appendix H HUD 1 prepared by Mike Kelly 402 Holt Road - no HUDl
exists for 1541 Fieldcrest Drive because he didn’t provide one

•

Appendix I

Sirva Mortgage filed with clerk

•

Appendix J Sirva Systems from SEC filings

Page 11 of 38

'vK...

• Appendix

Sirva (Steadfast Hedge Fund) SEC filing stock valued at

$12Trillion dollars and owned by 6 people. (Howland)
• Appendix

Sample of Linda Howland Bankruptcy filings

• Appendix NV Howland Business Operations , Foundations and
(

Investment firms
• Appendix ^ • Tax report provided by the town proving taxes on
property were paid by an account at Chase and Wells Fargo owned by
my X-husband even after the staged sale of the property.

Statement of the Basis for the Jurisdiction
The Judgment of the Court of Appeals was entered on 8/12/20 notice issued
9/2/20.
Deadline to file per Supreme Court Ruling dated 3/19/20 due to Covid is 150
i

days after lower court ruling which is well within the guidelines
Under -US Constitution, Article III, Section 2
•

The judicial Power shall extend to:
o all Cases, in Law and Equity, arising under this Constitution,
the Laws of the United States, and Treaties made, or which
shall be made, under their Authority
o Controversies to which the United States shall be a Party

In this case, jurisdiction extends to all cases arising under the laws of the
United States as facts will show the defendant’s actions were in violation of

Page 12 of 38

US Code of Law and the mortgage financing scheme is undermining the US
who is a party to the case.
Under US Constitution, Article III, Section 3
•

Treason against the United States, shall consist only in levying War
against them, or in adhering to their Enemies, giving them Aid and
Comfort. No Person shall be convicted of Treason unless on the
Testimony of two Witnesses to the same overt Act, or on Confession in
open Court.

Facts will show the defendants actions in violation of
US Code of Law-purposefully and with the intent to defraud the United
States in treasonous acts where profits generated support terrorism and
bankruptcy of the US

i

Page 13 of 38
X)

Constitutional Provisions and Statutes

Constitutional Provisions
US Constitution, Article III, Section 2
US Constitution, Article III, Section 3
Statutes

•

18 U.S.C. § 371 a conspiracy to defraud the US

•

18 USC 1014 False Statements in overvalue loan and loan applications

•

31 USC 3729 False Claims Act
18 U.S.C 1344 Bank Fraud

•

18 U.S.C, 1343 Wire Fraud

•

18 U.S.C 1961-1968 Racketeer influenced and corrupt organizations

•

18 USC 1956: Laundering of monetary instruments

•

15 USC 1637A(a), 1639(a-h): Truth in Lending and Real Estate
Settlement Procedures Act

'

•

12 USC 2605: Servicing of mortgage loans and administration of
escrow accounts

•

Federal Fair Housing Act Sec. 805(42 U.S.C. 3605) Discrimination in
Residential Real Estate-Related Transactions

•
f

18 USC 1028 Fraud and related activity in connection with
identification documents, authentication features and information

Page 14 of 38
1°. w

STATEMENT OF CASE
In this real estate fraud scheme a builder builds a home in a tract where he
already owns the land free and clear. He takes out a federally secured
mortgage to build a house which includes the price of the land and the house
(even though he owns the land). He inflates the price of the house, knowing
he is going to take the cash proceeds from the mortgage and pocket the
balance after building the house. There is now an outstanding federally
secured mortgage on the house with an inflated value. He does not have the
intention of paying the loan back which will cause default to the Federal
Government and the bank. He does this all across the country and overseas
and with the massive cash profits he sets up and buys many businesses to
support his ongoing scheme. Some of the businesses include non-profit credit
counseling organizations which give the opportunity to get Federal dollars for
mortgage and bankruptcy counseling as additional funds that drain federal
resources as part of the conspiracy. The non profit counseling agency
launders cash profits from real estate finance and creates a mechanism to
mass file bankruptcy of his multiple mortgages.
His efforts will cause bankruptcy of the Federal Government and bailouts
just like the housing crisis was caused in 2008. He sets up lobbying firms to
ensure he gets a continuous cash flow from the Federal Government stimulus
and create laws which allow his crimes to go undetected. As he plots to
bankrupt the US and the banking system.(ex - AIG failure, claims larger

Page 15 of 38
VMS

than the reserves could cover caused failure). The lobbyists don’t realize the

I

larger agenda and work diligently to influence for funding which sounds to
the public like it’s for the good of the people when in fact it lines the pockets
of radicals who are plotting to overthrow the US. This is by design as part of
the craft of this homebuilder’s larger political and economic agenda and a
plan I worked on with the criminals called the Evergreen Plan and C4S.
The “builder” contracts a realtor and attorney to fake the sale of the house.
Using a fake ID or participant as the buyer, they apply for another mortgage
from a wholesale mortgage company. There are now 2 outstanding federally
secured loans on the same property (one in his name and one in the fake

I

buyer’s name).
The lawyer and realtor fake the closing and prepare fraudulent closing
documents. The mortgage company wires the mortgage cash to the attorney
who takes the money and splits the proceeds with the realtor, himself and the
homebuilder.
They do not pay off the two outstanding federally secured mortgages on
inflated priced property which will go into bankruptcy. They do not file
required documents with the county clerk or pay taxes on the stolen cash
from the mortgage financing.
No payments are made on that federally backed loan and both loans will go
into bankruptcy as part of a conspiracy to undermine the financial security of

Page 16 of 38

r

the United States and banks from the strain of bad debt, unpaid property and
income taxes on the laundered money.

On 8/21/2015 Hollice Creek, real estate broker for Howard Hanna (Hanna
Holdings) submitted a purchase offer on the sale of my marital residence at
1541 Fieldcrest Drive Webster NY 14580 on behalf of buyers Mr. and Mrs.
Rowley of Missouri.
Unbeknownst to me at the time, all the land in the development Crytalbrook
Estates including the house at 1541 Fieldcrest was owned by me and my xhusband under the name Ontario Housing CA. My X'husband invested in
reverse osmosis technology using money I gave him in the startup. He told
me the investment was worthless but in fact resulted in trillions of dollars as
the technology for water treatment was sold to many companies. He and his
father Tim used the profits to incorporate the Tim Hortons and Wendy’s
franhise, set up oil and energy companies, real estate firms, title companies,
investment firms, housing corporations to name a few. The value of the
estate was over $12T. He lied and told me nothing came from the Investment
so I never knew about it. In the divorce he made arrangements through the
proceeds from the mortgage financing to pay the attorney and realtor to fake
the sale of the property and create a divorce settlement agreement that
would hide the true value of the estate. I discovered during the divorce some
of this and the illegal mortgage financing on a larger scale and asked y

Page 17 of 38

►
1

attorney Mike Kelly about it. He told me there was nothing I could do and I
should keep researching. Which I did and which has brought me to court

i

today as I have uncovered a widescale effort to bankrupt the US through the
illegal mortgage finance activity.
I researched the history of the land to discover that the builder Alan
Krautwurst was not actually the builder but a “subdivider” as documented by
the Town of Webster in a Foil report.
I discovered from the Foil report that the land was owned by Ontario
Housing CA which was the name my X set up to keep ownership of the
property. He and his father were the builders as I discovered Howland
Constuction and construction subsidiaries.
I discovered from the foil report that several other names were made up by
MLB engineering as owners of the property including Mr. and Mrs.
Grundman. Deeds were made up by participants in the real estate fraud to
be used as a front to hide that Howland(Ontario Housing retained
ownership). The reasoning so that using fake id’s and addrsses in the
neighborhood, they could obtain multi mortgages on the same property over
and over. Their intention was to default on mortgages they transferred to
banks they intended to cause failure and default to the Federal Government
in their conspiracy to defraud the US.
They would use the cooperation of banks and agencies set up in the credit
counseling industry to launder cash from the mortgage financing, use ID’s on

Page 18 of 38

the program to constitute the names in illegal trading, opening of fraudulent
bank accounts, originate mortgages, open lines of credit, and wire money
!

between banks. I worked the credit counseling organization and
unbeknownst to me at the time they were accessing the financial and
personal data on the debt management program and money at the banks to
support the highly illegal activity. Later their business expanded to sex and
drug trafficking where they profitied enourmously and hide the cash
payments for services on credit cards listed on the debt management
program. The credit counseling service (CCCS) is a front for the illegal
operations.
In 1999 when my X husband Daniel Howland and I contracted to build a
home in Crystalbrook Estates, I had no idea we already owned the land and
construction companies. Alan Krautwurst created a fake deed filed with the
clerk granting ownership to Daniel and myself. The deed was worthless and
Krautwurst did not have title to grant ownership of the property we already
owned
As Executive Director of Consumer Credit Counseling Services of Rochester
(CCCS) I participated in strategic planning exercises with like agencies from
throughout the US, UK and Canada. Efforts were in place to harness the
power of the wealth amassed from agency operations to undermine the US
and certain groups of the population including minorities, children and
seniors. The plan was entitled Evergreen and an international conglomerate

Page 19 of 38

r
C4S would be created to manipulate cash flows to banks in order to “gain the
upper hand”

f

I discovered the Board of Directors participation in this illegal

activity and reported them to the Securities and Exchange Commission. The
Board forced me to resign. I learned my X-husband and his family were
involved which is why I asked for divorce. My X-husband knew I had no idea
of the wealth that had been amassed as a result of the investment I gave him
the money for or the illegal profits he made from accessing the operations
where I worked.

’

I went to work for the University of Rochester and learned my x-husband was
using systems at the University to launder cash in an investment kickback
scheme where stock transfers could be made providing a mechanism to get
appreciated stock from illegal investing back into his hands. I told the
University about this and they subsequently fired me as I know they were
aware of the criminal activity. Prior to that they referred my attorney Mike
Kelly to me knowing he would work with my X-husband to hide the value of
the estate, fake the sale of the property and take the proceeds from the illegal
financing as compensation
Through the wealth accumulated the Howland family established many real
estate firms and title companies to facilitate this fraud as they accessed the
money and data from the trust and operating account at the credit counseling
firm.

Page 20 of 38

0

As part of the divorce the judge ordered the sale of the marital residence at
1541 Fieldcrest Drive. I contacted Hanna Holdings (Howard Hanna Real
Estate) where Hollice worked (which turns out was established by Howland)
to sell the house. Hollice worked collusively with Mike to present a fake
purchase offer knowing the house and property would not be sold and that
she and Mike would take the proceeds from the mortgage financing as
compensation
Hollice would present a purchase offer on behalf of Rowleys from Missouri
who are either participants in the s cheme Or never met by anyone as they
did not show up at the staged closing but instead were represented by an
attorney from Hollic’s firm. Hollice applied using Rowley as the nameholder
for a mortgage from Sirva Mortgage, a wholesale mortgage company as part
of the Howland network.
Howland with their wealth build banks unlicensed and unregulated
(Howland-Enfiled FCU) and mortgage finance companies like Sirva. Further
investigation of SEC Edgar filings prove Sirva owned Frontrunner (FNS) as a
subsidiary. I contracted FNS while working at the credit counseling agency
to operate telephony T-l services for high speed data transfers and phone
services. Mortgages were originated using the fake data and stock trades
were placed using the data and money on in the network. A hedge fund
(Steadfast) was created and investment firm also under the umbrella of the
Sirva mortgage company as was trucking and title companies. (Steadfast) a

Page 21 of 38

I

hedge fund with 6 owners and $13B in assets under management from this
fraud.
My X'husband knew both Hollice and Mike would launder the money from
the mortgage proceeds and not pay off the existing liens with JP Morgan
Chase. The intent to let those federally secured loans go into default as part
of the scheme to defraud the US in federal mortgage failure.
The town tax records will prove that no escrow existed at Sirva paying the
taxes but in fact the money came from accounts in my X’husband Dan
Howland’s name at JP Morgan and Wells Fargo. He paid the taxes on the
property even after the alleged sale from the Rowley’s. Multiple mortgages
were taken on the same property using addresses and names that are a digit
or letter off (ex - 1541 Fieldcrst, 1542 Fieldcrest Drive and Linda A Howland,
Linda B Howland).
Four years later in 2019 in a pattern of racketeering Hollice firm, Howard
Hanna Real Estate Holdings (Hanna Holdings) staged another sale of the
property again to Mr. and Mrs. Somers. Mortgage financing was obtained by
another bank (ESL) and that money was distributed somewhere although its
not clear where. The JP Morgan loan was not discharged and as part of the
plan will go into default.
There is some significance to the names used in this mortgage fraud whih my
X husband indirectly told me about such as Somers. Somerset being the town
where United Flight 93 went down in PA on 9/11. 9/11 attack on the Twin

Page 22 of 38

f
Towers as the former financial capital of the world where JP Morgan HQ
resides. JP Morgan from my planning experience at the counseling agency
was a target bank for takedown in antitrust practices a non-cooperative bank
in the Evergreen Plan. ISIS funding came from wired money through an
escrow account at JP Morgan. Quatar as the owners of the Star and One
World Alliance owning United Airlines planned the attack. Massive Debt
Purchases of US bonds from Quatar are occurring as the US continues
bailout money in support of aid to struggling homeowners and businesses. I
wrote the DOJ of my experience and research at the University of Rochester
and Consumer Credit Counseling whereby the real estate finance fraud is
funding this activity. “Harnessing the power of the cooperative banks and
counseling agencies to fund a new political and economic agenda” Networks
supporting the agency IT services from Russia (Relcom) and manipulation of
the upcoming election with mail in voter ballots using the fake id’s planted in
the counseling services databases. The operations evolved to hide payments
for drug and sex trafficking paid for using credit cards placed on the debt
management firm. On an international scale Trillions of dollars is
supporting this initiative and threatens our system of democracy with the
upcoming election in 2020.
Mike Kelly refused to provide an accounting of where the mortgage money
was wired and disbursed and no HUD 1 or deed was prepared at closing.

Page 23 of 38

Where did the money from the mortgage financing get wired? I never
received any proceeds from the staged sale of the property.
In violation of my civil rights, both Mike Kelly and Hollice Creek plotted to
obtain cash from the mortgage financing and not forward proceeds to me
because I was a female getting divorced from the organized crime family from
which they profit.
I trusted Mike and he prepared a divorce agreement that was not in my favor
nor did it make sense but I did not know the laws. I checked other counsel
and none would dare cross the Howland Family for fear of retaliation.
What I’m trying to tell the court is that my mortgage in this case is
just one example of a larger scheme. Bankruptcy records exist in my
name across the country illustrating the bank losses and hits to the
Federal Government from the bad debt.
•

I filed a lawsuit in the Western District of NY against my X husband
Daniel Howland for his falsification of the statement of net worth.
Judge Siragusa dismissed the case as frivolous and said it was a family
court issue. Family Court said it was a civil court issue and dismissed
the case as well. Neither court will challenge the wealth of the
criminal activity from the Howland family organized crime

•

I filed a lawsuit in Western District of NY against Consumer Credit
Counseling Services et al (Howland Family) for my personal injury as
a result of their mental and financial abuse towards me as the former

Page 24 of 3 8

Executive Director and family member who would not participate in
this activity. 1 dropped the case out of fear of their retaliation.
•

I have a pending lawsuit in the Western District of New York 6:2019 cv
06532 with Paychex and the University of Rochester for being fired in
retaliation for reporting information about this scheme to Human
resources after discovery of their participation in this fraud. The case
is held up in court because the court is inundated with bogus lawsuits.
using these fake ID’s to stall the case from bringing the facts to the
public until post election.

•

Use of what was defined to me while managing the credit counseling
agency as the Housing and Urban Development (HUD) Hope Portal
used the ID’s and money on the credit counseling program to originate
mortgages in this scheme. Howland established businesses like
Wendy’s, Tim Horton’s, Goldschmidt*Howland UK, Howland*Green
Canada, United Refinery, Howland Investments, multiple construction
and real estate firms and Banks as a few examples. The value of the
estate is over $6Trillion dollars.

•

With cash profits they enable firms and people to buy US debt that
gets purchased by foreign countries and holding companies. More US
Debt is issued in bailouts thereby increasing their hold on debt laden
and cash strapped Fed. Eventually it will collapse from inability to

Page 25 of 38

►

make the bond payments. In their devious means Congress is lobbied
by firms they set up to pass legislation that furthers this initiative.
•

In the strategic planning efforts I participated in with the credit
counseling agencies around the world. Some of the larger banks are in
support of this initiative most evident Wells Fargo Bank who was
brought up on recent charges by the Federal Government for opening
over 1 Million fake accounts. This is exactly what I’m trying to
illustrate for the courts in this case that fake ID’s are perpetuating
mortgages which are going into bankruptcy. I was a victim of this
practice set up by my X-husband, Hollice Creek and Mike Kelly.

•

Most importantly is the harm which is being brought to people through
the use of software used on this massive database. In my experience
with these criminals, the software purchased from the University of
Rochester was designed to racially profile people and cause great harm
to minorities, seniors and children. (Environmental, Financial,
Education). I can elaborate if the court would permit the writ and
allow me to present my experience on operations.

Summary of this case as the example of one in a million:
i

1. The alleged homebuilder (Krautwurst) develops a housing tract. The
land is owned by the Howland Family under a disguised name
(Ontario Housing of Canada). Krautwurst makes up deeds in soiling
homes to buyers. He does not have rights to make deeds, but the

Page 26 of 38

►

homeowner doesn’t know this and nobody reads the history of the land
ownership to realize it. Krautwurst has controls from Russia as
evidenced in the town Foil Report.
2. On a parcel of the property in the tract such as 1541 Fieldcrest drive a
mortgage is obtained with a bank that’s federally secured (Mortgage #1
- JP Morgan).
3. Over the years additional mortgages are taken on the lots in the
development with various wholesale mortgage companies or banks like
(Howland-Enfield FCU, Sirva Mortgage). ID’s are stolen and faked
from the credit counseling operations to originate loans. Howland sets
up title companies, appraisers and real estate firms like the one
Hollice works for (Hanna Holdings) to obtain cash from multiple
mortgages. They inflate housing prices and they never pay off
outstanding liens with competitive banks. Those Federal Insured
loans go into default harming the US and requiring bailouts which
force the Fed to issue debt. That debt gets bought by Howland and
other communist dictators waiting for the US to default on loan and
bond payments.
4. Bank accounts are set up to establish accounts for deposit of cash from
the illegal Financing.(Wells Fargo). Cash is transferred via the
counseling agencies wiring operations.

Page 27 of 38

5. Clerk records and bankruptcy records around the US will prove the
facts and illustrate the wide scale fraud.
6. (Howland Construction- my x-husband’s family) enlists a lawyer (Mike

Kelly) to participate in the loan closing giving the appearance the
transactions are legal. He is compensated to do this through a cut of
the cash from the financing or stocks or scholarships from foundations
established by Howland in the tax fraud scheme.
7. The outstanding mortgages are placed on a debt management plan at

CCCS. The HUD Hope Portal is used to transfer the bad mortgages to
banks they target for failure and to originate additional mortgages in
the cash financing scheme.
8. The process has evolved with computer programming using massive

data files with names, social security numbers, birthdates, and
financial data from the counseling agencies to automate the process
open accounts online around the world where money gets wired.
9. The business operations have evolved into drug and sex trafficking
using the counseling agency operations as a front to control the flow of
money on credit cards planted in the system. Overseas call centers set
up to mass process bankruptcy filings (Responsible Debt Relief in
Malaysia)

Page 28 of 38

10. Property taxes are paid from escrow accounts on the first mortgage.
Eventually they will go into default causing financial stress on town
budgets.
11. Outstanding mortgages are backed by the Government via Fannie
Mae, Freddie Mac or the VA. The banks have servicing expenses to
manage the account and the escrow accounts. Both the Federal
Government and the Banks will lose money as these mortgages will
default. Its happening with student loans as well. I can illustrate for
the court if you would allow me.
12.Multiple mortgages on the same property are taken out to provide cash
flow for investment fraud. To the public or a lender the mortgage
appears as a typo when in fact it’s part of the scheme. Examples of the
addresses are 1541 Fieldcrest Drive, 1542 Fieldcrest Drive, 1543
Fieldcrest Drive which I can illustrate on my credit report. Linda A
Howland, Linda B Howland and Linda C Howland are used in
bankruptcy filings throughout the US which I can also illustrate for
the court. Bad debt is transferred to non-cooperative banks in
violation of antitrust laws
13. Those same ID’s are used in investment fraud and constitute trade
data used by high speed traders for investment firms (Howland
Investments, TDL Holdings, Barhav Holdings). The stock trading will
manipulate stock prices and create profits. I can describe how the cash

Page 29 of 38

is accessed from capital gains distribution and tell you the names of
the companies involved in the trading involving a firm in Germany
(Allianz and Mauser) all connected to the Consumer Credit Operations
I was forced to resign from after reporting to the SEC.
14. The timing of this is purposeful and political according to some
planning over the years in a conspiracy to defraud the US and the new
vision (2020). There are codes I can describe which are used
throughout to identify people who support and there are dates, names
and events in the bible they use to guide their practices. It can be
proven through JP Morgan London Whale trading debacle, 911 Twin
Tower attacks and many other terrorist attacks supported by cash
flows from the credit counseling operations. Common sense using
census data will support that volume of transactions on the stock
market and in the real estate industry do not support actual activity
by real people.
15. Additional loans and credit is obtained using the fake ID’s and the
bad debt is eventually transferred to non-cooperative banks which will
cause them to go bankrupt. I have filed tips with the Securities and
Exchange Commission, Federal Trade Commission, FBI, Department
of Justice, Police and the IRS. The problem being that there is not
jurisdiction by any one agency to understand or shut down the
organized crime ring.

Page 30 of 38

f

16. Mike and Hollice will argue the statute of limitations is applicable
however it is not because the last date of the fraud occurred in 2019
when the property at 1541 Fieldcrest was actually sold and a deed
(although its not valid) was filed with the clerk finalizing the sale. This
was when I realized the fraud and filed the lawsuit in a timely manner

I can prove to the court from records that the following violations the law
occurred:
18 U.S.C. § 371 a conspiracy to defraud the US : two or more persons conspire
to commit any offense against the United State or to defraud the United
States. Holly and Mike conspired with intention to defraud the US by
presenting a fraudulent mortgage application on behalf of fake or
participating buyers. Their purpose was to steal the cash from the mortgage
financing and not pay off outstanding federally insured liens. They
purposefully created misleading documents tricking me to think they paid off
the outstanding liens and transferred proceeds to me. Their intention is that
the unpaid federally insured loans will go into bankruptcy harming the
federal government in a conspiracy to defraud the United States.

18 USC 1014 False Statements in overvalue loan and loan applications
“Knowingly or making false statements or willfully overvaluing any property
or security for the purpose of influencing the actions of the organizations”
Holly and Mike presented misleading documents including a purchase offer

Page 31 of 38

and closing documents on 1541 Fieldcrest Drive in August 2015. They did
not prepare a HUDl closing document required by law. They falsely applied
for a mortgage on behalf of buyers knowing they would take the proceeds
from the loan.

31 USC 3729 False Claims Act - When any person or entity improperly
received or avoids payment to the Federal Government. The mortgage
proceeds from the staged sale of Fieldcrest Drive were laundered through
closing documents. None of the money was paid to the Federal Government
in avoidance of tax payments.

18 U.S.C 1344 Bank Fraud - Whoever knowingly executes a scheme to
defraud a bank... .Mike and Holly obtained illegal financing on behalf of a
buyer with the intention of never paying off the outstanding liens on the
property at 1541 Fieldcrest drive in a scheme to defraud the bank. Holly 4
years later had her firm Hanna Real Estate (set up by Howland from the
mortgage fraud) obtained additional cash from a mortgage at Eastman
Savings and Loan. Those funds were not used to payoff existing liens on the
property at 1541 Fieldcrest. The federally backed outstanding loans will
eventually default leaving the federal government and bank with great
losses.

Page 32 of 38

18 U.S.C, 1343 Wire Fraud Whoever having devised or intending to devise
a scheme to defraud for obtaining money or property by means of fraudulent
pretenses by means of wire shall be fined.

Holly, Mike and Rowley applied

for a mortgage from an unlicensed mortgage broker and had funds wired with
the intent to steal the proceeds to an account somewhere and lauder the
transfer through falsified documents. Mike Kelly would not disclose where
the funds went or an accounting of the wired transaction. No taxes were paid
on the illegal flow of cash

18 U.S.C 1961-1968 Racketeer influenced and corrupt organizations Two or
more individuals engaged in a pattern of criminal offense including wire
fraud within a 10 year period. In a pattern of organized crime to obtain cash
from mortgage financing, Mike and Holly obtained cash from a wire transfer
in 2015, 2016 and again in 2019. They obtained cash from the mortgage
financing and did not pay off the outstanding liens on the property with the
money. Their intention was to defraud banks and the federal government.

18 USC 1956: Laundering of monetary instruments: Whoever knowing that
the property involved in a financial transaction represents the proceeds of
unlawful activity which involves proceeds of unlawful activity with the intent
to promote the carrying of specific unlawful activity. Mike and Holly staged
the sale of 1541 Fieldcrest Drive. To hide the cash obtained from the illegal

Page 33 of 38

mortgage financing they created false purchase offer, a false loan application,
a false HUD1 documents, and a false deed and failed to file records with the
county. In doing so they were trying to hide they stole the cash proceeds from
the mortgage financing. No taxes were paid on the cash and no recording of
where the funds were wired. Records will prove Howland continued to pay
the mortgage held at JP Morgan Chase and the taxes on the property

15 USC 6000 Consumer Protection -Truth in Lending and Real Estate
Settlement Procedures Act: Section 6000 Chapter 2, Credit Transactions 128
(B) Disclosure Requirements. Information clearly and conspicuously
disclosed as required by the law. Mike as my attorney at the staged closing
of 1541 Fieldcrest Drive nor the attorney representing the buyers Rowley
(who was in conflict and violation of New York state real estate law) a
member of Hollice Creeks Firm provide the proper disclosures from the
mortgage finance company Sirva outlining the terms of the mortgage or the
escrow account to pay homeowners insurance or taxes. Nothing came from
Sirva mortgage that would satisfy the law requiring disclosure of fees, rates,
escrow, payment schedules, financing terms, Records will prove this loan
was only taken for the purposes of stealing the proceeds and the tax and
homeowner insurance were paid by JP Morgan Chase in the account owned
by my x-husband

Page 34 of 38

12 USC 2605: Servicing of mortgage loans and administration of escrow
accounts. No documentation from Sirva Mortgage was provided at closing to
illustrate how the taxes would be paid through escrow, the terms of the loan
or the closing of the existing escrow or lien on the property used to pay the
taxes held at JP Morgan Chase. SirVa did not provide servicing records
because they were unlicensed. They did not hold the mortgage or pay the
taxes and no documents were provided at closing as required by law.

Federal Fair Housing Act Sec. 805(42 U.S.C. 3605) Discrimination in
Residential Real Estate-Related Transactions Hollice and Mike staged the
sale of the house in an act of civil rights violations by purposefully defrauding
me in the real estate transaction because I was a female getting a divorce
from an organized crime family. Hollice commented I would not survive
easily and she could not imagine divorce as a female.

18 USC 1028 Fraud and related activity in connection with identification
documents, authentication features and information
Holly, Mike and buyer Rowley applied for a mortgage loan using
identification from Rowley who may not even have been a legitimate person.
No authentication of Rowely was done by Sirva or Holly as part of the real
estate sale. The application was falsified and Rowley’s were not
authenticated as real borrowers. The cash from the mortgage was wired to

Page 35 of 38

an escrow with Mike Kelly who did not disclose what happened with the
money.

12 USC 2605: Servicing of mortgage loans and administration of escrow
accounts -Federal Fair Housing Act Sec. 805(42 U.S.C. 3605) Discrimination
in Residential Real Estate-Related Transactions. In retaliation for my
divorce from the organized crime construction family business, Mike and
Holly intentionally set out to defraud me because I was a female getting a
divorce, Holly made that clear in her presentation as did Mike in his
representation of me in conflict of interest.

18 USC 1028 Fraud and related activity in connection with identification
documents, authentication features and information. Mike and Holly did not
authenticate the Rowley’s in the purchase offer, loan application or on closing
documents. Holly provided a representative from her firm to act as an
attorney representing the Rowley’s at the staged closing. No authentication
the Rowleys in fact are real people. Further investigation shows Rowley used
in a construction operation in a housing development in Missouri as part of a
similar scheme with sale of property to coincidentally an employee of the
credit counseling firm in Rochester NY(Lentine)

Page 36 of 38
&

REASONS FOR GRANTING/CONCLUSION
I am begging the court listen to this case, not so much for my recovery
financially but because the US constitution and our system of democracy is
being undermined. The citizens of the US are in danger as a result of the

Page 37 of 38

controls enabled by these practices. Please review this case and the
University of Rochester case to see the larger scale fraud which could be
brought to the attention of authorities and the public and stopped.
I’m hopeful the court will find that I adequately proved the defendants Mike
and Holly committed crimes in violation of US Code of Law in efforts to
defraud me and the United States.
I would request^
•

The petition for a writ of certiorari should be granted and the court
consider hearing the case

and/or
•

The Court require the lower court to hear the case

and/or
•

The Court grants the financial compensation request based on the
merits I provided in this case

Whatever you deem most appropriate and according to the laws and
jurisdiction of the Supreme Court of the United States.
Respectfully submitted,
Linda Howland

10/21/2020

Page 38 of 38

